                      U.S. Department of Agriculture
                         Office of Inspector General




American Recovery and Reinvestment Act –
 Business and Industry Guaranteed Loan
           Program (Phase 1)




                               Audit Report 34703-1-Te
                                           March 2010
                             U.S. Department of Agriculture
                              Office of Inspector General
                                Washington, D.C. 20250




DATE:         March 31, 2010

REPLY TO
ATTN OF:      34703-1-Te

TO:           Dallas Tonsager
              Under Secretary
              Rural Development

              Judith A. Canales
              Administrator
              Rural Business-Cooperative Service

THROUGH: John Purcell
         Director
         Financial Management Division

FROM:         Gil H. Harden /s/
              Acting Assistant Inspector General
               for Audit

SUBJECT:      American Recovery and Reinvestment Act – Business and Industry
              Guaranteed Loan Program (Phase 1)


This report represents the results of the subject audit. The finding and recommendation was
previously reported to you in a Fast Report, dated October 16, 2009. On October 23, 2009,
you responded to the recommendation. Based on your response, we were able to accept
management decision for the recommendation stated in the report. Excerpts of your response
and the Office of Inspector General’s position are incorporated with the recommendation in
the report.
Please follow your agency’s internal procedures in forwarding final action correspondence to
the Director, Planning and Accountability Division, Office of the Chief Financial Officer.
We appreciation the courtesies and cooperation extended to us by members of your staff
during this audit.
Table of Contents

Executive Summary.................................................................................. 1
Background & Objectives ........................................................................ 4
  Background ............................................................................................ 4
  Objectives .............................................................................................. 5
Finding 1: Recommendations Left Unresolved Due to Withdrawal of
Interim Rule ............................................................................................... 6
        Recommendation 1.......................................................................... 7
Scope and Methodology .......................................................................... 8
Abbreviations .......................................................................................... 10
American Recovery and Reinvestment Act – Business and Industry
Guaranteed Loan Program (Phase 1)

Executive Summary
This report presents the results of our first phase of audit work related to the implementation of
the American Recovery and Reinvestment Act of 2009 (Recovery Act) Business and Industry
(B&I) Guaranteed Loan Program.1 In enacting the Recovery Act, Congress emphasized the need
for accountability over the expenditures of funds. In response, the Office of Management and
Budget (OMB) issued guidance2 that required Federal agencies to establish rigorous internal
controls, oversight mechanisms, and other approaches to meet the accountability and
transparency objectives of the Recovery Act. The Recovery Act provided a budget authority3 of
$130 million for the B&I Guaranteed Loan Program.

Our role, as mandated by the Recovery Act, is to monitor agency activities and ensure agencies
expend funds in a manner that minimizes the risk of improper use. During the first phase of the
Office of Inspector General (OIG) audit oversight, we focused on the development of program
guidance and requirements for distributing Recovery Act funding and evaluating internal
controls. Since Rural Development had not announced any loan approvals during our fieldwork
(as of October 13, 2009), we did not perform tests to verify compliance with agency policies and
procedures regarding loan approval nor did we conduct reviews to confirm participant eligibility.
As such, we did not ascertain the overall effectiveness of the internal controls in place or whether
lenders made errors or took advantage of the existing weaknesses or deficiencies cited in this
report. However, we did note during the internal control review process that Rural Development
has controls in place to prevent ineligible participants, such as the clearance process described
below. Program participants’ eligibility and loan approval will be tested in subsequent audit
work.

In addition to those unresolved recommendations previously presented to Rural Development,4
we identified two audit recommendations that would be unresolved due to the withdrawal of an
interim rule by the agency. The noted weaknesses involve the valuation of loan collateral for
certain industries and specialized equipment, and the need for due diligence during loan
origination. If left unresolved the weaknesses will introduce a significant risk to the Guaranteed
Loan Program. On October 16, 2009, we issued a Fast Report, formally notifying Rural
Development of these unresolved weaknesses and recommending that it implement corrective
actions. In response, Rural Development issued two Administrative Notices to agency officials
as guidance to address the noted weaknesses.5



1
    The American Recovery and Reinvestment Act of 2009, H.R. 1, was signed into law on February 17, 2009.
2
    On February 18, 2009, OMB issued “Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009.” Subsequently
    on April 3, 2009, OMB issued “Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.”
3
    Budget authority is the actual cost of a program to the Government; it is funding that the Government does not recover.
4
    Fast Report 85703-1-HQ, “Existing Risk to Rural Development’s Economic Recovery Program,” dated April 3, 2009.
5
    Administrative Notice Number 4477, “Business and Industry Guaranteed Loan Program Loan Processing Issues” issued November 4, 2009 and
    Administrative Notice Number 4478, “Business and Industry Guaranteed Loan Program Collateral Discounting” issued November 10, 2009.


       Audit Report 34703-1-Te                                                                                                          1
As of the end of our fieldwork (October 13, 2009), Rural Development had not announced any
B&I loan approvals involving Recovery Act funds. The Recovery Act authorized approximately
$130 million in budget authority for the Department of Agriculture to guarantee B&I loans.
When the subsidy rate6 multiplier is applied to the $130 million authorized for this program,
Rural Development will be able to fund B&I guaranteed loans of approximately $1.6 billion.
Obligation goals for each State office have been established and published in an Administrative
Notice, which also provides guidance regarding the funds made available for the B&I program
by the Recovery Act. The funds are being held at the national office and will be allocated to the
States on a loan by loan basis. Rural Development’s goal is to expend all available funds,
focusing on Recovery Act funds first since they expire September 30, 2010. 7 However, Rural
Development has not fully obligated its funds for the past 2 years and has had extensive
carryover. In fiscal year 2008, it obligated $1.4 billion, the highest dollar value of loan
guarantees made in the last 5 years. In 2009, it obligated $1.1 billion and will have a carryover
into fiscal year 2010 of approximately $496 million, with an additional $993 million from the
fiscal year 2010 appropriation. With $1.6 billion in Recovery Act funds as well as the annual
appropriation and carryover funding available,8 Rural Development may face challenges
obligating all available funding sources including Recovery Act funds.

Rural Development implemented a clearance process specifically to approve projects requesting
Recovery Act funding. The State offices will review projects to ensure they meet the Recovery
Act requirements. Eligible projects are entered into a restricted shared site, from which national
office staff reviews the projects and creates a listing of proposed projects. Each listing generally
contains multiple individual projects for B&I guaranteed loans. The listing of proposed projects
is submitted to the Office of the Secretary, OMB, and potentially the White House for
concurrence. State offices will be notified of those projects selected for obligation and funds will
be allocated to the States for their approved loans. Rural Business-Cooperative Service stated
that it takes approximately 2-4 weeks to receive feedback from OMB. At the request of the
lender, time sensitive projects may be pulled from the listing and processed through the regular
B&I program, typically due to this lengthy clearance process for Recovery Act-funded projects.9
As of November 27, 2009, 13 listings have entered the clearance process. Nine of them have
completed the process and are awaiting obligation totaling approximately $210.7 million or
13 percent of the available $1.6 billion for the B&I program. Rural Development is in the
process of developing a nationwide outreach program to improve program awareness and
increase program usage. An Administrative Notice10 instructed the States to “develop and
implement an outreach plan to assist in eliminating disparity in program delivery” and included
steps to take in preparation for its development. Although the implementation of the B&I
Recovery Act program may seem delayed, no projects have been held up. According to Rural
Development, this is because it has funds from multiple authorities readily available to fund


6
     In fiscal year 2010, the subsidy rate creates $12.30 in loans for every $1 budget authority to determine program level lending.
7
     Rural Development has several funding authorities, e.g., Recovery Act, fiscal year 2010 annual appropriation, carryover, and disaster funding.
8
     Carryover ($496 million) + fiscal year 2010 appropriation ($993 million) + Recovery Act ($1.6 billion) = Total funds available ($3.089 billion)
9
     The processing goal for the normal B&I Guaranteed Loan Program was 45 days in 2009 and 40 days in 2010.
10
     Administrative Notice Number 4471, B&I Guaranteed Loan Program, Recovery Act, dated August 20, 2009.


        Audit Report 34703-1-Te                                                                                                                   2
projects that are ineligible for Recovery Act funding or that elect not to go through the clearance
process and/or additional restrictions and requirements to obtain Recovery Act funds.

   Recommendation Summary
   For the two prior audit recommendations presented in the Fast Report, we recommended that
   Rural Development institute interim corrective actions to address identified deficiencies in its
   internal controls prior to expending Recovery Act funds, while continuing to pursue
   permanent corrective actions.

   Agency Response
   Agency national office officials generally agreed with our finding and recommendation as
   presented in the Fast report. They proposed corrective actions that should address the
   existing risks of insufficient collateral and lender negligence during loan origination that
   would result in significant loss to the program.
   The agency responses are posted on our website with the applicable Fast Report. These
   reports can be found at http://www.usda.gov/oig/recovery/recovery_reports.htm.

   OIG Position
   We agreed with the agency’s proposed corrective actions and reached management decision
   on this recommendation.




   Audit Report 34703-1-Te                                                                        3
Background & Objectives

Background
In response to the economic downturn and increasing unemployment rate, Congress passed the
American Recovery and Reinvestment Act of 2009 (Recovery Act). The Recovery Act
authorized $130 million for the Business and Industry (B&I) Guaranteed Loan Program, which
provided for a lending level of approximately $1.6 billion. Funds were made available under this
authority through September 30, 2010.
The Rural Business-Cooperative Service (RBS), an agency within the Department of
Agriculture’s Rural Development mission area, is responsible for administering the B&I
Guaranteed Loan Program to improve, develop, or finance business, industry, and employment,
and improve the economic and environmental climate in rural communities. This is achieved by
bolstering the existing private credit structure through the guarantee of quality loans that will
provide lasting community benefits. The B&I program is a lender-driven program that provides
a loan guarantee to a bank or other approved lender to finance private businesses located in rural
areas. The commercial lender applies to RBS for the loan guarantee. Upon approval of a loan
guarantee (or signing of Form RD 1940-3, Request for Obligation of Funds Guaranteed Loan),
the agency will issue a conditional commitment to the lender, containing all conditions under
which a loan note guarantee will be issued. Once all conditions have been met, the agency will
issue and execute the loan note guarantee. A lender would provide the loan to the borrower and
Rural Development would guarantee repayment of a portion of the loan in the event the borrower
defaulted. The lender is responsible for making, servicing, and collecting the loan.
On July 24, 2009, a Notice of Funding Availability was published in the Federal Register,
announcing the availability of the B&I Recovery Act assistance and outlining the additional
provisions that apply to the award of these Recovery Act funds. For the most part, Recovery Act
funded loans will be processed and serviced in the same way as regular B&I loans using existing
program regulations. Adjustments were made to several features of the B&I program, including
the percentage of guarantee, guarantee fee, and annual renewal fee.
Specifically, Rural Development will guarantee a maximum of 90 percent on all Recovery Act
funded loans that score at least 55 priority points11 under the agency’s priority scoring criteria
outlined in the current regulations.12 In addition, Rural Development reduced the initial
guarantee fee from 2 percent to 1 percent and eliminated the annual renewal fee. The funds will
be distributed on a first-come-first-served basis; however, 10 percent of the Recovery Act
funding is allocated for businesses located in persistent poverty counties. In addition to the
purposes and entities that are ineligible for funding under the regular B&I program, the
following purposes are ineligible under the Recovery Act: zoos; aquariums; convenience stores,
unless the store provides quality jobs and sells or will sell E85 fuel upon completion of the
project; pools; water parks; hotels/motels and other facilities that have pools or water parks; golf
courses; casinos or other gambling establishments; and museums.


11
      States are to score applications consistent with the criteria specified in Rural Development Instruction 4279-B, section 4279.155, with 10
     Administrator discretionary points being awarded to projects where the borrower provides quality jobs and meets at least one of the four
     demographic criteria (area of outmigration, high unemployment, under-served groups/under-represented areas, and persistent poverty counties).
12
     Title 7, Code of Federal Regulations, part 4279, Guaranteed Loanmaking, subpart B, 4279.155, Loan Priorities, dated January 1, 2008.


        Audit Report 34703-1-Te                                                                                                                 4
The Recovery Act also mandates that the Office of Inspector General (OIG) provide oversight of
programs, grants, and activities funded by the Recovery Act and administered by the Department
of Agriculture. To assist Rural Development in achieving its Recovery Act objectives and
minimize the risks of inefficient or improper actions that could put taxpayers’ money at risk, we
initiated a multiphase program of oversight related to Recovery Act funding. Audit work in the
first phase was focused on overseeing the development of program guidance and requirements
for distributing Recovery Act funding and evaluating internal controls. Additional phases will
focus on assessing the effectiveness of the internal controls.

Objectives
The objectives of Phase 1 were to determine if: (1) Recovery Act-related programs are timely
and effectively implemented; (2) proper internal controls are in place to ensure that the Recovery
Act objectives are achieved; and (3) program participants meet eligibility requirements.




   Audit Report 34703-1-Te                                                                       5
Finding 1: Recommendations Left Unresolved Due to Withdrawal of Interim
Rule
To assist Rural Development in achieving its Recovery Act objectives and minimize the risks of
inefficient or improper actions that could put taxpayers’ money at risk, we initiated a program of
oversight related to Recovery Act funding. The initial project in our oversight was to review
unresolved audit recommendations that could impact internal controls over Recovery Act
activities. The results of this initial project were reported on April 3, 2009. In that report, we
identified 11 prior recommendations that if left unresolved or not mitigated would introduce a
significant risk of inefficient or improper use of Recovery Act funding.
During our current review, we identified two additional prior audit recommendations that Rural
Development officials had originally planned to resolve by the issuance of a rule that was then
under consideration. However, Rural Development officials informed us that a decision had
been made to cancel the issuance of this rule. As a result, Rural Development’s B&I Recovery
Act loan program remains at risk. Specifically, in 2002,13 we had recommended that Rural
Development coordinate with the Office of the General Counsel to develop and implement a
process to provide a realistic discount for the value of collateral for certain industries and
specialized equipment. Rural Development had agreed to revise its guidance to address this
issue.
In another audit report issued in 2003,14 we had recommended that Rural Development consult
with the Office of the General Counsel to rescind a loan note guarantee or substantially reduce
the loss payment due to a lender’s failure to exercise due diligence in ensuring that the
construction of a sawmill was properly planned, designed, and equipped with available funding
to produce the quantities of lumber sufficient to make loan payments. Rural Development had
agreed to revise its regulations in order to hold lenders financially liable for negligence during
loan origination. The regulation holds lenders financially liable only for negligent servicing, not
loan origination. On September 10, 2009, Rural Development informed us that it would address
this concern in future revisions of the current regulation.15
According to OMB,16 agencies should determine whether final action has been taken regarding
weaknesses or deficiencies disclosed by prior audits in program areas under which Recovery Act
funds are authorized. If final action has not been completed, agencies should: (1) expedite such
action to preclude the continuance of such weaknesses or deficiencies in the administration of
Recovery Act funded programs; or (2) provide an explanation of why such corrective actions
cannot or should not be taken in the administration of Recovery Act funded programs.
OIG issued a Fast Report, dated October 16, 2009, which formally notified Rural Development
that these recommendations were left unresolved due to the withdrawal of the new regulatory



13
     “Rural Development Liquidation of B&I Guaranteed Loan, Washington State,” Audit Report 34601-7-SF, dated December 2002,
      Recommendation 1.
14
     “Rural Development Lender Servicing of B&I Guaranteed Loans in Georgia,” Audit Report 34601-4-At, dated January 2003,
     Recommendation 1.
15
     Title 7, Code of Federal Regulations, part 4279, “Guaranteed Loanmaking,” dated January 1, 2008.
16
     OMB, Memorandum for the Heads of the Departments and Agencies, M-09-15, “Updated Implementing Guidance for the Recovery Act,”
     section 3.10, dated April 3, 2009.


        Audit Report 34703-1-Te                                                                                                      6
guidance. Rural Development generally agreed with our conclusions and provided a written
response, detailing the corrective actions to be implemented.

   Recommendation 1
   Institute interim corrective actions to address previously identified internal control
   deficiencies prior to expending Recovery Act funds, while continuing to pursue permanent
   corrective actions.

   Agency Response
   On October 23, 2009, the Under Secretary for Rural Development stated in response to our
   Fast Report that Administrative Notices have been drafted for distribution to agency officials
   addressing both collateral discounting as well as loan processing issues. This guidance will
   be in effect for 1 year and by the time it expires, regulations are expected to be enhanced to
   incorporate this information. In the event the enhanced regulation is not published upon
   expiration of these Administrative Notices, they will be reissued to continue the enforcement
   of these requirements.

   OIG Position
   Rural Development issued Administrative notices on November 4, 2009 and November 10,
   2009 addressing these weaknesses. We accept management decision for this
   recommendation.




   Audit Report 34703-1-Te                                                                      7
Scope and Methodology
We conducted our audit of the B&I Guaranteed Loan Program at the Rural Development
National Office in Washington, D.C. The Rural Development State Office in Temple, Texas,
was judgmentally selected to be contacted for information based on its close proximity to the
OIG Southwest Regional Office and it had the highest amount of B&I guaranteed loan funds
obligated for fiscal year 2008 at the time of our review. As of October 13, 2009, Rural
Development had not announced Recovery Act funds obligations for any projects under the B&I
Guaranteed Loan Program.

In performing our review, we used a multiphase approach. Audit work in this phase (phase 1)
was performed to monitor development of program guidance and requirements for distributing
Recovery Act funding for B&I guaranteed loans; evaluate internal controls used to ensure
program objectives are achieved; and monitor performance goals established to measure B&I
Guaranteed Loan Program effectiveness in meeting the purposes of the Recovery Act.
Specifically, to monitor the development of program guidance and requirements for distributing
Recovery Act funding for B&I guaranteed loans, we interviewed Rural Development National
Office officials and obtained and reviewed regulations and guidance. We also contacted the
Rural Development Texas State Office for information related to guidance received from the
national office. In addition, we documented the application process and identified the internal
controls in place.
To evaluate internal controls used to ensure program objectives are achieved, we reviewed the
appropriate management decision documents as well as regulations, Administrative Notices,
Unnumbered Letters, and any other guidance used to administer the program. We also reviewed
prior OIG audit recommendations which had not reached final action or were affected by the
withdrawal of the interim rule. In addition, we conducted interviews with Rural Development
National Office officials. Furthermore, we discussed the compliance reviews to be conducted to
ensure that funds are expended on authorized uses and meet the purposes of the Recovery Act.
We also interviewed Rural Development Texas State Office officials to verify the process and
procedures used at the State office level for projects approved using Recovery Act funds. 17
In order to monitor Rural Development’s performance goals established to measure the B&I
Guaranteed Loan Program’s effectiveness in meeting the purposes of the Recovery Act, we
reviewed the performance measures stated in Rural Development’s Recovery Act
Implementation Plan specifically for this program. We also reviewed the program assessment
report prepared by OMB and Federal agencies found on ExpectMore.gov.
In addition, we obtained and reviewed the following:
        ·    American Recovery and Reinvestment Act of 2009;
        ·    Notice of Funds Availability;
        ·    Recovery Act-related OMB Guidance;
        ·    President’s Memorandum;
        ·    Fiscal Year 2008 Performance and Accountability Report;

17
     Testing of Recovery Act implementation will be conducted in subsequent audit work.


        Audit Report 34703-1-Te                                                                   8
   ·   Fiscal Year 2008 Federal Managers Financial Integrity Act Report;
   ·   Fiscal Year 2008 B&I Management Control Review; and
   ·   2007 and 2008 Business and Cooperative Programs Assessment Reviews.
We conducted our fieldwork from June through October 2009.
We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




   Audit Report 34703-1-Te                                                                     9
Abbreviations
B&I                Business and Industry
OIG                Office of Inspector General
OMB                Office of Management and Budget
Recovery Act       American Recovery and Reinvestment Act of 2009
RBS                Rural Business-Cooperative Service




   Audit Report 34703-1-Te                                          10
